No. 20-7819
________________________________________________
In the Supreme Court of the United States
________________________________________________
Theresa A. Logan,
Petitioner
v.
Town of Windsor, New York
Respondent
________________________________________________
Respondent’s Brief in Opposition
to Petitioner’s Petition for a Writ of Certiorari
________________________________________________

James P. O’Brien, Esq.
COUGHLIN & GERHART, LLP

Attorneys for Respondent

99 Corporate Drive
Binghamton, NY 13790
Mailing Address:
P.O. Box 2039
Binghamton, NY 13902-2039
Theresa A. Logan, pro se
50 Williams Road
Windsor, New York 13865
607-655-1853

Questions Presented

Respondents Town of Windsor, New York; Robert Briggs; Gregg Story;
and New York Municipal Reciprocal Insurance Company (hereinafter
collectively “Respondent”) deny that Petitioner Theresa A. Logan
(hereinafter “Petitioner” or “Plaintiff”) presents any questions that
should compel this Court to grant Petitioner’s Petition for a Writ of
Certiorari. Respondent further states that to the extent Petitioner’s
Questions Presented are understood, each presents unfounded
conclusions of law to which no response is required.
As

to

Petitioner’s

Question

1,

Respondent

denies

that

Respondents Brinks or Story, or Attorneys O’Brien or Bouman,
committed perjury, or that any person or entity has “allowed” them to
do so. Respondent further states that Question 1 does not present a
compelling reason why the Petition should be granted.
Respondent objects to Question 2 as vague and unintelligible. To
the extent it is understood, Respondent denies any wrongdoing and
states that Question 2 does not present a compelling reason why the
Petition should be granted.
Respondent objects to Question 3 as vague and unintelligible. To
the extent it is understood, Respondent denies any wrongdoing and
states that Question 3 does not present a compelling reason why the
Petition should be granted.
1

Respondent objects to Question 4 as vague and unintelligible. To
the extent it is understood, Respondent denies any wrongdoing and
states that Question 4 does not present a compelling reason why the
Petition should be granted.
Respondent objects to Question 5 as vague and unintelligible. To
the extent it is understood, Respondent denies any wrongdoing and
states that Question 5 does not present a compelling reason why the
Petition should be granted.
Respondent further contends that the Court of Appeals of the
State of New York, and the United States Court of Appeals for the
Second Circuit ruled correctly in affirming dismissal of Petitioner’s
personal injury Complaints.

2

Table of Contents and Authorities
Opinions below

5

Statement of Jurisdiction

15

Statement of Facts

17

Argument

19

Conclusion

29

Cases:

Theresa Odejimi v. Town of Windsor, No. #2011-2394, (N.Y. Sup. Ct.
June 11, 2015).

Theresa Odejimi v. Town of Windsor, No. #2011-2394, (N.Y. Sup. Ct.
May 25, 2016).

THERESA ODEJIMI, Appellant, v. TOWN OF
Respondent., No. # 523549, (N.Y. App. Div. Oct. 6, 2016).

WINDSOR,

THERESA ODEJIMI, Appellant, v. TOWN OF WINDSOR,
Respondent., No. # 523549, (N.Y. App. Div. Jan. 19, 2017).
THERESA ODEJIMI, Appellant, v. TOWN OF WINDSOR,
Respondent., No. # 523549, (N.Y. App. Div. Mar. 16, 2017).
Odejimi v. Town of Windsor, 29 N.Y.3d 1074, 79 N.E.3d 1124,
1124, reargument denied, 29 N.Y.3d 1117, 83 N.E.3d 849 (Sep. 12,
2017).

Furness, Withy & Co. v. Yang-Tsze Ins. Ass'n, 242 U.S. 430, 434, 37 S.
Ct. 141, 142, 61 L. Ed. 409 (1917).

Logan v. Town of Windsor, No. 3:18-cv-593, (N.D.N.Y. 2018).
Logan v. Town of Windsor, 19-143, (2nd Cir. 2019).
Logan v. Town of Windsor, 3:19-cv-01590, (N.D.N.Y. 2020)
Logan v. Town of Windsor, 3:19-cv-01590, (2nd Cir. 2020)
Statutes and Rules:
United States Code:
3

28 U.S.C. § 1915(a)(3)
28 U.S.C. § 1257(a)
28 U.S.C. § 1254(1)
42 U.S.C. § 1983
Fed. R. Evid. 408
Sup. Ct. R.:
Rule 10, Rule 14, Rule 15
New York State Vehicle and Traffic Law § 1103(b)
New York State Insurance Law § 5102, 5104

4

Opinions Below
This matter arises out of personal injuries Petitioner
claims she sustained as the result of an alleged encounter with a
municipal snowplow in 2011.
A. New York State Court
By Decision & Order dated June 11, 2015, the New York State
Supreme Court denied without prejudice Defendant’s Motions for
Summary Judgment, and granted Petitioner leave to amend her
Complaint and Bill of Particulars. Theresa Odejimi v. Town of Windsor,
No. #2011-2394, (N.Y. Sup. Ct. June 11, 2016).
By Decision & Order dated May 25, 2016 and filed in the Broome
County Clerk’s Office on May 25, 2016, the New York State Supreme
Court granted the Defendant’s Motion for Summary Judgment
dismissing the Petitioner’s Complaint against it, on the basis that
Petitioner failed to produce legally sufficient evidence of statutorilydefined serious injury that was causally related to the alleged incident.

Theresa Odejimi v. Town of Windsor, No. #2011-2394, (N.Y. Sup. Ct.
May 25, 2016).
Plaintiff/Appellant filed a Notice of Appeal to the New York State
Supreme Court Appellate Division, Third Department. Respondent
moved that court for an Order dismissing the Appellant’s Appeal. In a
Decision and Order on Motion of the Appellate Division, Third

5

Department, decided and entered on October 6, 2016, the Respondent’s
Motion to Dismiss the Appeal was granted. As part of the court’s
Decision and Order, the Appellant’s motion for Permission to Proceed as
a Poor Person was denied. THERESA ODEJIMI, Appellant, v. TOWN

OF WINDSOR, Respondent., No. # 523549, (N.Y. App. Div. Oct. 6, 2016).
Plaintiff’s subsequent Motion for Oral Reconsideration and for
Further Relief was denied by Decision and Order of the Appellate
Division, Third Department. THERESA ODEJIMI, Appellant, v. TOWN

OF WINDSOR, Respondent., No. # 523549, (N.Y. App. Div. Jan. 19,
2017).
Plaintiff’s subsequent Motion for Reversible Error was denied by
Decision and Order of the Appellate Division, Third Department.

THERESA

ODEJIMI,

Appellant,

v.

TOWN

OF

WINDSOR,

Respondent., No. # 523549, (N.Y. App. Div. Mar. 16, 2017).
Plaintiff filed a Motion for Leave to Appeal in the Court of Appeals
of the State of New York. The court dismissed the motion upon the
ground that the court did not have jurisdiction to entertain it, and
Plaintiff’s Motion for Poor Person Relief was dismissed as academic on
June 8, 2017. Odejimi v. Town of Windsor, 29 N.Y.3d 1074, 79 N.E.3d
1124, 1124, reargument denied, 29 N.Y.3d 1117, 83 N.E.3d 849
(September 12, 2017).
B. Federal Court

6

Relevant federal procedural documents and decisions are
available at the United States District Court for the Northern District
of New York, Docket No. 3:18-cv-593, at the United States Court of
Appeals for the Second Circuit at Docket No. 19-143 (collectively, “Logan

I”), as well as at the United States District Court for the Northern
District of New York, Docket No. 3 19-cv-1590, and at the United States
Court of Appeals for the Second Circuit at Docket No. 20-2518
(collectively, “Logan II”).
Petitioner commenced an action on May 18, 2018 in the United
States District Court for the Northern District of New York, along with
a motion for leave to proceed in forma pauperis, based on the same set
of allegations that formed the basis of her New York State complaint.
Complaint, Logan v. Town of Windsor, No. 3:18-cv-593, #1-2 (N.D.N.Y.
2018). On June 26, 2018, by Order, Report, and Recommendation by
Magistrate Judge Peebles, the Court accepted her application to proceed

in forma pauperis and dismissed her complaint for lack of subject matter
jurisdiction with leave to amend her complaint. Order, Report, and
Recommendations, Logan v. Town of Windsor, No. 3:18-cv-593, #4
(N.D.N.Y. 2018).
On July 11, 2018, Petitioner filed her first amended complaint.
Docket No. 3:18-cv-593, #5. By Decision and Order dated August 14,
2018, District Judge Suddaby adopted Magistrate Peebles’s Order,

7

Report, and Recommendation, but did not find that the Court lacked
subject matter jurisdiction. Decision and Order, Logan v. Town of

Windsor, No. 3:18-cv-593, #6 (N.D.N.Y. 2018). The Court stated, “the
strongest claim that Petitioner attempts to be asserting is a
constitutional claim pursuant to 42 U.S.C. § 1983.” Id. at 3. The Court
noted that a failure to cure this defect would not be a dismissal for lack
of subject matter jurisdiction, but instead a dismissal for failure to state
a claim. Id. The Court also noted Petitioner failed to cure the defects
identified by Magistrate Peebles, such as there were no facts plausibly
alleging federal discrimination, there were no facts alleging diversity of
citizenship, no allegations that either events occurring within three
years of the date of the filing of the complaint or facts plausibly
suggesting an exception to the statute of limitations; and the lack of
factual allegations plausibly suggesting that either the town or its two
employees violated her rights under either the Fourteenth or First
Amendment. Id. at 3-4.
The Court also noted, “the Amended Complaint does not solve the
apparent problems posed by the filing of a prior state-court action
arising from the same events (e.g., problems of ripeness and/or problems
stemming from the doctrines of collateral estoppel and/or res judicata)
given that the Amended Complaint continues to reference the statecourt action.” Id. Recognizing Petitioner did not have the benefit of this
8

decision, the District Court granted her one final chance to amend her
complaint in accordance with the Decision and Order. Id. at 5.
On September 14, 2018, Petitioner filed a Second Amended
Complaint with seven exhibits. Amended Complaint, Logan v. Town of

Windsor, No. 3:18-cv-593, #7 (N.D.N.Y. 2018).
By Report and Recommendation dated September 28, 2018,
Magistrate Peebles recommended the district court dismiss the Second
Amended

Complaint

without

leave

to

amend.

Report

and

Recommendation, Logan v. Town of Windsor, No. 3:18-cv-593, #8
(N.D.N.Y. 2018).
In light of Judge Suddaby’s Decision and Order, the Court analyzed
whether Petitioner plausibly alleged claims under the 14th Amendment
and the state-created danger doctrine and a First Amendment access to
courts claim. Id. at 9.
The Court held that Petitioner failed to plausibly allege a violation
state-created danger doctrine, and recommended dismissal of this claim.

Id. The Court also recommended dismissing Petitioner’s First
Amendment access to courts claim. Id. at 14.
The Court also recommended against exercising supplemental
jurisdiction over Petitioner’s tort claims since she failed to plausibly
allege any federal claims pursuant to 42 U.S.C. § 1983. Id. at 16. The
9

Court considered several factors in its analysis, including judicial
economy, fairness, and comity, which militated against exercise of
supplemental jurisdiction. Id.

Accordingly, the Court recommended

against exercising supplemental jurisdiction. Id.
Since Petitioner was provided an opportunity to cure “the precise
deficiencies discerned in her original pleadings,” the Court denied leave
to amend. Id. at 17. As the Court recommended dismissal of both her
federal

claims,

recommended

against

exercising

supplemental

jurisdiction over her state tort law claims, and denied leave to amend,
the Court recommended dismissal of Petitioner’s Second Amended
Complaint with prejudice. Id. at 18.
Petitioner requested an extension to file an objection to the report
recommendation, which was granted by the court by Text Order dated
October 10, 2018. Letter Motion at 11, Logan v. Town of Windsor, No.
3:18-cv-593, #9 (N.D.N.Y. 2018). Petitioner also filed a motion to appoint
counsel on October 10, 2018.
Petitioner filed her objection on October 19, 2018, failing to
specify the grounds for her objection. Objections, Logan v. Town of

Windsor, No. 3:18-cv-593, #12 (N.D.N.Y. 2018).
Petitioner filed a Third Amended Complaint on October 19, 2018.
Amended Complaint, Logan v. Town of Windsor, No. 3:18-cv-593, #13
10

(N.D.N.Y. 2018). By Decision and Order dated December 17, 2018, the
Court held Petitioner’s Third Amended Complaint was a nullity since it
was filed without leave by the Court. Decision and Order, Logan v. Town

of Windsor, No. 3:18-cv-593, #14 (N.D.N.Y. 2018). The Court also noted
that Plaintiff’s objection to the Report-Recommendation failed to
provide a specific challenge and was therefore subject to a clear error
review. Id. Under clear error, the District Court found no clear error in
the Report Recommendation. Id. at 3. As there was no clear error, the
Court adopted the Report-Recommendation in its entirety and
dismissed the Second Amended Complaint, also denying Petitioner’s
motion to appoint counsel as moot. Id. It also noted Petitioner’s motion
is unsupported by a showing of cause warranting appointment of
counsel. Id. at 3-4. The Court also certified that an appeal from this
Decision and Order would not be taken in good faith pursuant to 28
U.S.C. § 1915(a)(3).
A judgment was filed on December 17, 2018 Judgment, Logan v.

Town of Windsor, No. 3:18-cv-593, #15 (N.D.N.Y. 2018). Petitioner filed
a notice of appeal on January 11, 2019. Notice of Appeal, Logan v. Town

of Windsor, No. 3:18-cv-593, #16 (N.D.N.Y. 2018).
On January 24, 2019, Petitioner filed Motions with the United
States Court of Appeals for the Second Circuit for appointment of
counsel, which the Court also construed as a motion to seek leave to
11

proceed in forma pauperis, and appealed the District Court decision. No.
Motion, Logan v. Town of Windsor, 19-143, #13. (2nd Cir. 2019).
By Decision and Order dated April 26, 2019 the United States
Court of Appeals for the Second Circuit denied Petitioner’s Motion for
appointment of counsel and/or motion to seek leave to proceed in forma
pauperis, and dismissed Petitioner’s appeal as lacking an arguable basis
in law or fact. Motion Order, Logan v. Town of Windsor, 19-143, #21. (2nd
Cir. 2019).
On May 8, 2019, Plaintiff moved the Court for reconsideration of
its April 26, 2019 Decision and Order. Motion, Logan v. Town of

Windsor, 19-143, #21. (2nd Cir. 2019).
On May 29, 2019, the Court denied Petitioner’s motion for
reconsideration, and denied as moot Petitioner’s motion to seek leave to
proceed in forma pauperis. Motion Order, Logan v. Town of Windsor, 19143, #29. (2nd Cir. 2019).
On June 5, 2019, the United States Court of Appeals for the
Second Circuit issued a mandate pertaining to its April 26, 2019
Decision and Order. Certified Copy of Order, Logan v. Town of Windsor,
19-143, #34. (2nd Cir. 2019).
On July 2, 2019, Petitioner filed a Petitioner for Writ of Certiorari
with this Court, which was denied on October 7, 2019.

12

On December 20, 2019, Petitioner commenced Logan II by filing
a Complaint in the United States District Court for the Northern
District of New York. Complaint, Logan v. Town of Windsor, 3:19-cv01590, #1. (N.D.N.Y. 2020)
On April 23, 2020, Magistrate Lovric issued an Order and Report
and Recommendation that the Logan II Complaint be dismissed without
leave to replead for lack of subject matter jurisdiction, reasoning that
the Complaint evinced no federal claim, and noting that the Logan II
Complaint was virtually identical to the Logan I Complaint. Order and
Report-Recommendation, Logan v. Town of Windsor, 3:19-cv-01590, #5.
(N.D.N.Y. 2020).
On July 20, 2020, over Petitioner’s objection, Chief Judge Glenn
T. Suddaby adopted the Report and Recommendation in its entirety and
dismissed the Logan II Complaint for lack of subject matter jurisdiction.
Decision and Order, Logan v. Town of Windsor, 3:19-cv-01590, #5.
(N.D.N.Y. 2020).
On July 29, 2020, Petitioner filed a Notice of Appeal to the United
States Court of Appeals for the Second Circuit. Notice of Appeal, Logan

v. Town of Windsor, 3:19-cv-01590, #14. (N.D.N.Y. 2020). Petitioner
filed an Appeal in August, 2020. Logan v. Town of Windsor, 3:19-cv01590, #1-#21. (2nd Cir. 2020). Respondent opposed this Appeal. Oral
argument was held on January 12, 2021.

13

On January 25, 2021, the United States Court of Appeals for the
Second Circuit affirmed the decision of the district court dismissing the
Complaint. Summary Order and Judgment, Logan v. Town of Windsor,
3:19-cv-01590, #82. (2nd Cir. 2020).

14

Statement of Jurisdiction
It is unclear on what grounds Petitioner invokes this Court’s
jurisdiction. Petitioner incorrectly asserts that the date on which the
highest state court decided her case was January 25, 2021. The Court of
Appeals of the State of New York dismissed Petitioner’s motion for leave
to appeal on June 8, 2017. To the extent that Petitioner invokes this
Court’s jurisdiction under 28 U.S.C. § 1257(a), this Court has previously
denied a Petition for Writ of Certiorari based on the June 8, 2017 ruling
on February 20, 2018, and with respect, should do so again. The final
judgment of the Court of Appeals of the State of New York did not draw
into question the validity of any treaty or statute of the United States,
or the validity of any statute of any State on the ground that such treaty
or statute is repugnant to the Constitution of the United States. Nor was
any title, right, privilege, or immunity specially set up or claimed under
the Constitution or the treaties or statutes of, or any commission held
or authority exercised under, the United States.
While Petitioner now invokes New York State Vehicle and Traffic
Law § 1103(b), neither her New York State action nor her two federal
actions turned on this statute. Petitioner is clearly abusing the legal
process with meritless filings intended to harass and incur expense.

15

In the event that Petitioner is invoking this Court’s jurisdiction
under 28 U.S.C. § 1254(1), Petitioner erroneously asserts that the date
on which the US Court of Appeals decided her case was August 3, 2020.
The U.S. Court of Appeals first decided her case on April 26, 2019, and
issued a mandate on June 5, 2019. The U.S. Court of Appeals next
decided her case on March 19, 2021, affirming the district court’s
dismissal of her complaint.

16

Statement of Facts
This case arose out of the removal of snow on a public highway by
the Town of Windsor, by its snowplow while engaged in highway work
and maintenance, namely, snow removal that occurred on March 7,
2011, at 50 Williams Road in the Town of Windsor, County of Broome,
State of New York.

The Plaintiff, Theresa Odejimi, now known as

Theresa Logan, alleged that she was parked to the side of Williams
Road, about 8-10 feet onto her property and had been brushing, clearing,
and shoveling snow from her parked vehicle, when a snowplow driven
by a Town of Windsor employee allegedly caused snow to come into
contact with her, an allegation Respondent denies.
Defendant moved for summary judgment dismissing the
complaint on the basis that Plaintiff has not sustained a causally related
serious injury as defined by New York State Insurance Law § 5102(d), a
prerequisite for bringing a claim in New York State arising out of a
motor vehicle accident, including an accident involving a snowplow and
pedestrian.

The Supreme Court of New York State held that the

Plaintiff failed to raise triable questions of fact as a matter of law as to
whether she had sustained a causally related serious injury as defined
by New York State Insurance law § 5102(d) and the Plaintiff’s case was
dismissed in its entirety. Petitioner then appealed to the New York State
Supreme Court, Appellate Division, which denied Petitioner’s appeal.

17

Petitioner appealed to the Court of Appeals of New York State, which
denied her appeal. On December 11, 2017, Petitioner filed with this
Court a Petition for a Writ of Certiorari to review the decision of the
Court of Appeals of the State of New York. This Court declined to grant
that Petition.
On May 18, 2018, over four years after the statute of limitations
on Petitioner’s original claim had run, Petitioner proceeded to attempt
to pursue her personal injury action based on the same set of allegations
in the United States District Court for the Northern District of New
York. Her Complaint was ultimately dismissed by the District Court
and, following an appeal, by the United States Court of Appeals for the
Second Circuit. On December 20, 2019, over five years after the statute
of limitations had run, Petitioner commenced Logan II, based on the
same set of allegations as Logan I and the same underlying facts as the
state action. The United States Court of Appeals for the Second Circuit
affirmed the United States District Court for the Northern District of
New York ‘s dismissal of the Logan II complaint.

18

Reasons for Denying the Petition
1.

Petitioner has not asserted a compelling reason for the
Court to grant the Petition

Rule 10 of the Rules of the Supreme Court of the United States
lists three categories that are more likely to give rise to compelling
reasons for the Court to grant a petition for a writ of certiorari.
The first category concerns United States Courts of Appeals, and
lists three scenarios: the first is a decision of one US Court of Appeals
has issued a decision in conflict with another, which is inapplicable here.
The second scenario concerns federal questions; no federal question was
raised in the New York State or federal matters. The third concerns a
court that has departed from the accepted and usual course of judicial
proceedings, which the facts in this case do not support. U.S. Sup. Ct. R.
10. Mrs. Logan’s objections to various court decisions over the years
appear to be that they have not gone her way.
The second category is when “a state court of last resort has
decided an important federal question in a way that conflicts with the
decision of another state court of last resort or of a United States court
of appeals.” U.S. Sup. Ct. R. 10. This scenario is also inapplicable to the
instant matter, in which the Court of Appeals of the State of New York
affirmed the trial court and Appellate Division in a controversy where
no important federal question was raised. And the third scenario also
involves “important question[s] of federal law” or “important federal
19

questions,” Id., neither of which were present in Petitioner’s attempts in
New York State or federal court. Lastly, Rule 10 provides that “[a]
petition for a writ of certiorari is rarely granted when the asserted error
consists of erroneous factual findings or the misapplication of a properly
stated rule of law.” Id.
The instant petition concerns allegedly erroneous findings of fact,
and makes no mention of any federal law or question, and is without “[a]
direct and concise argument amplifying the reasons relied on for
allowance of the writ” as required by Rule 14 of the Rules of the Supreme
Court of the United States. U.S. Sup. Ct. R. 14. The petition is facially
deficient with respect to the guidelines of Rule 10.
For this reason, Respondent respectfully requests that the Court
deny Petitioner’s Petition for Writ of Certiorari.

2.

Petitioner has failed to present points requiring the Court’s

consideration with accuracy, brevity, and clarity.
The Petition is rife with violations of Rule 14 of the Supreme
Court of the United States. The following is a representative, nonexclusive list of those violations:
Petitioner’s questions presented, in addition lacking the requisite
national importance described in Rule 10 (see above), are not expressed
concisely, contain unnecessary detail, and are argumentative and

20

repetitive, in contravention U.S. Sup. Ct. R. 14 (1)(a). In addition,
Petitioner’s questions presented and other assertions frequently lack
clear meaning.
Petitioner’s

table

of

contents

is

incomprehensible,

in

contravention of U.S. Sup. Ct. R. 14 (1)(c).
Petitioner does not include an intelligible statement of the basis
for jurisdiction in this Court, as required by U.S. Sup. Ct. R. 14 (1)(e).
Petitioner does not comply with the requirements of U.S. Sup. Ct.
R. 14 (1)(f). In addition, the “Constitutional and Statutory Provisions
Involved”

section

references

clearly

inapplicable

Constitutional

Amendments, as well as New York State Vehicle and Traffic Law §
1103(b), exempting persons and vehicles engaged in highway work from
liability unless the conduct causing injury rises to the level of reckless
disregard. Petitioner’s case was not dismissed on the basis of this
statute. Petitioner’s case was dismissed on summary judgment on May
25, 2016 because after having been given numerous chances to
demonstrate a triable question of fact, she was unable to submit proof of
serious injury in legally sufficient form, pursuant to New York State
Insurance Law § 5102, 5104, and case law applying that statute.
Petitioner’s statement of the case is not concise, and fails to
identify any federal questions sought to be reviewed, let alone when in
the state or federal court proceedings those questions were raised, the

21

method and manner of their raising, the way in which they were passed
on by the state and federal courts, or any pertinent quotations of specific
portions of the record where such questions might have appeared, as
required by U.S. Sup. Ct. R. 14 (1)(g)(i). Petitioner fails to identify any
instance where the US Court of Appeals for the Second Circuit, or any
lower federal or state court, departed from the accepted and usual course
of judicial proceedings.
Petitioner’s “Reasons for Granting the Petition” are similarly
unintelligible and unavailing. Petitioner alleges that legal errors were
made by lower courts, however, she has now appealed three times. No
court found any basis to overturn any result. To the extent that
Petitioner contends she has not been given a “concrete explanation” as
to why she has not prevailed, she need only read the various decisions
of each court for such explanations. Petitioner’s contention that the
undersigned’s associate, Thomas Bouman, Esq., perjured himself in
some way is simply not understood. To the extent it is understood, it is
denied in the sense that at no time did Mr. Bouman state, set forth, or
suggest that “Mrs. Logan was living homeless on the streets, domicile…”
(Petition, p. 44). He would have had no reason to. Petitioner’s residence
is only faintly at issue to the extent that she, as a resident of New York
State, would not be able to proceed in federal court against a New York

22

State-domiciled defendant on the basis of diversity jurisdiction, which
in any event was not a jurisdictional basis she asserted.
Rule 14 provides, “[t]he failure of a petitioner to present with
accuracy, brevity, and clarity whatever is essential to ready and
adequate understanding of the points requiring consideration is
sufficient reason for the Court to deny a petition.” U.S. Sup. Ct. R. 14.
This rule is consistent with Court rulings denying petitions for writs of
certiorari:

“Unless

[petitions]

are

carefully

prepared,

contain

appropriate references to the record, and present with studied accuracy,
brevity, and clearness whatever is essential to ready and adequate
understanding of points requiring our attention, the rights of interested
parties may be prejudiced and the court will be impeded in its efforts
properly to dispose of the causes which constantly crowd its docket.”

Furness, Withy & Co. v. Yang-Tsze Ins. Ass'n, 242 U.S. 430, 434, 37 S.
Ct. 141, 142, 61 L. Ed. 409 (1917).
The Petition meets neither the formal requirements of the Rules
of the Supreme Court of the United States nor the formal requirements
of the Court’s case law. These deficiencies of accuracy and clarity are
pervasive, and will certainly prejudice the rights of the Respondent
should this Petition be granted. For this reason, Respondent respectfully
requests that the Court deny the Petition for a Writ of Certiorari.

23

3.

Petitioner has made numerous misstatements of fact and
law

Rule 15 of the Rules of the Supreme Court of the United States
requires Respondent to identify in its opposing brief any misstatements
of fact or law made by the Petitioner, or waive raising them
subsequently.
A. First Section
Petitioner’s brief opens with an unidentified section offering
erroneous legal conclusions, allegations, and misstatements of fact.
Respondent denies each and every allegation and suggestion that
they or their attorneys were untruthful in any way.
Respondent denies the allegations that they committed any
tortious conduct, including but not limited to improper or reckless
operation of the snowplow and speeding.
As set forth in a previous section, Petitioner’s allegations with
respect to statements made regarding her domicile are not understood.
Neither the undersigned nor Attorney Bouman stated, set forth, or
suggested that Petitioner was “domiciled, or living on the streets” or did
not own her home. That is simply not an issue in this case, but to the
extent Petitioner alleges that either attorney made a false statement in
any respect, that is specifically and vehemently denied.
Petitioner’s contentions with regard to the timing of the suit are
similarly unintelligible. Respondent does not dispute that Petitioner
24

first brought suit in New York State Supreme Court in 2014, based on
an event that allegedly occurred in 2011. The state court action was
dismissed on summary judgment, based on lack of competent proof of
causally-related serious injury. Petitioner then proceeded to commence
two (2) federal lawsuits based on the same allegations in 2018 and 2019,
both of which were dismissed.
Respondent lacks knowledge and information sufficient to form a
belief as to the nature of Petitioner’s legal representation, except to state
that Petitioner is not entitled to the services of an attorney as regards
her personal injury case. Her inability to retain legal representation is
not relevant to her Petition, and may simply reflect that Petitioner had
no meritorious case.
Petitioner contends that Respondent has somehow “switched
attorneys” in that the undersigned requested and received the
assistance of Mr. Bouman, who is an associate of my law firm. Petitioner
further suggests that this is somehow improper. Respondent denies that
this is improper and further states that it is commonplace for associates
of a law firm to assist partners of a law firm in legal matters.
Respondent mischaracterizes Mr. Bouman’s statements at oral
argument at the U.S. Court of Appeals. Respondent further states that
Mr. Bouman’s arguments were consistent with the district court’s
decision, which dismissed the complaint based on lack of subject matter

25

jurisdiction.

Mr.

Bouman

also

emphasized

that

Mrs.

Logan

unsuccessfully pursued her claims three times, once in state court and
twice in federal court, and that the doctrine of res judicata could also
have been a ground for dismissal.
Petitioner alleges that Respondent made factual errors in the
New York State action. Respondent denies that such errors were made
as to her residence at the time of the alleged incident, or as regards the
weather conditions, and further states that such errors, even if they had
been made, were not of any significance to the outcome of the state
action.
Respondent denies any improper or reckless use of the snowplow,
deny causing Petitioner injury, and deny taunting her after the fact.
Respondent lacks knowledge and information sufficient to form a
belief as to Petitioner’s claimed injuries, symptoms, treatment, or legal
representation.
To the extent Petitioner references settlement discussions, it is
for the apparent purpose of attempting to show that Respondent is liable
for her alleged injuries, and Respondent objects to such material when
used for that purpose. Fed. R. Evid. 408.
Respondent denies that Petitioner is entitled to the driving
records of Mr. Briggs or Mr. Story, and specifically denies that Mr.
Briggs or Mr. Story were in any way impaired at the time of the alleged

26

incident. Petitioner had an opportunity to explore these theories in the
discovery phase of the New York State action. Contrary to Petitioner’s
assertion, it is not the role of the “lower courts” to ask such questions of
Respondent on behalf of Petitioner; it was Petitioner’s role to martial
evidence. Once again, Petitioner’s case was dismissed for failure to
create a triable issue of fact as to New York State’s statutory serious
injury requirement, which had nothing to do with Mr. Briggs’ or Mr.
Story’s alleged conduct.
Respondent denies targeting Petitioner or her husband with any
conduct, harassing or otherwise, and denies the conduct described on
pages 17-19 of the Petition.

B.

Petitioner’s Statement of the Case

1.

Respondent denies that Petitioner was seriously injured as

a result of any action or omission or Respondent, and denies each and
every allegation that Respondent engaged in tortious conduct of any
kind.
2.

Respondent lacks knowledge and information sufficient to

form a belief as to Paragraph 2, 3, or 4.

C.

Petitioner’s Reasons for Granting the Petition

27

1.

Paragraph 1 presents legal conclusions to which no

response is required. To the extent a response is required: denied.
2.

Respondent objects to Paragraph 2 as unintelligible. To the

extent Paragraph 2 is understood, Respondents deny that any lower
court decision should be overturned.
3.

Respondent objects to Paragraph 3 as unintelligible. As

previously stated, Respondent denies that the undersigned’s associate
Thomas Bouman’s assistance in this matter has been in any way
improper, and deny that Mr. Bouman ever made the assertions
described.
4.

Respondent lacks knowledge and information sufficient to

form a belief as to Paragraph 4.
5.

Respondent objects to Paragraph 5 as unintelligible. To the

extent Paragraph 5 is understood, Respondents deny that any lower
court decision regarding Petitioner’s should be overturned.
4.

The State and Federal Actions Were Decided Correctly

The record in this case indicates that Petitioner had ample
opportunity to pursue her personal injury action in New York State
Courts, with the Appellate Division and the Court of Appeals for the
State of New York reviewing the trial court’s decision. Petitioner’s New
York State action was decided correctly with no federal question or
controversy presented to require this Court’s review.
28

Petitioner’s personal injury claim was properly dismissed at the
United States District Court and appellate level, twice. The record
demonstrates that Petitioner was given ample opportunity to state a
federal claim and failed to do so. In addition, Petitioner’s attempt to
pursue her personal injury action in federal court is time-barred and
barred by the doctrine of res judicata. There is no indication in the
federal record of any departure from accepted and usual judicial
proceedings.

Conclusion
For the reasons stated above, Respondent respectfully requests
this Court deny Petitioner’s Petition for Writ of Certiorari.

Respectfully Submitted,
26 2021
April ___,
______________________________
James P. O’Brien, Esq.
COUGHLIN & GERHART, LLP

Attorneys for Respondent

99 Corporate Drive
Binghamton, NY 13790
Mailing Address:
P.O. Box 2039
Binghamton, NY 13902-2039

29

